INSTITUTE FOR CONSTITUTIONAL ADVOCACY AND PROTECTION
GEORGETOWN UNIVERSITY LAW CENTER

September 7, 2021
Hon. Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington DC 20543
Re: Shenandoah Valley Juvenile Center Commission v. John Doe 4, No. 21-48
Dear Mr. Harris:
On behalf of Respondents, I am writing to request a 30-day extension of time to file a response to
the Petition for Writ of Certiorari in the above-referenced matter.
The Petition was filed on July 9, 2021. On August 9, 2021, Respondents notified the Court that they
waived their right to respond to the Petition. On August 30, 2021, the Court requested a response
to the petition by September 29, 2021.
Due to the press of other business, undersigned counsel anticipates that she will need additional
time to prepare a response to the Petition. Accordingly, Respondents request a 30-day extension of
the response deadline to October 29, 2021.
Counsel of record for Petitioner has authorized undersigned counsel to represent that Petitioner
consents to this extension request.
Sincerely,

Kelsi Brown Corkran
kbc74@georgetown.edu

cc: Jason A. Botkins

600 New Jersey Avenue NW, Washington, D.C. 20001 | (202) 662-9042 | reachICAP@georgetown.edu

